                                                                            -.Ji
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number:. Al1040029                                                                      Page 1 of 1



                 NSF GIG received an allegation that a professor (Subject)! had published manuscripts,
         one of which contained NSF-funded research,2 without acknowledging the intellectual
         contribution and authorship role of his former graduate student (Student).3

                 The University4 conducted an inquiry and investigation into the allegation, and provided
         our office with its reports and their attachments. Based on its investigation, the Investigation
         Committee concluded that the Student and the Subject had "an acrimonious dispute" resulting in
         the Student's resignation from the Subject's research group. The Committee concluded, based on
         a preponderance ofthe evidence, that the Subject knowingly and recklessly committed
         misconduct, deemed a significant departure from accepted practices of the research community,
         and the University took action against the Subject.

                 The University's assessment is consistent with its policy. We also believe that the
         University's actions adequately protect the federal interests. Accordingly, this case is closed and
         no further action taken.




NSF OIG Fonn 2 (11102)
